<html>
<title> - THE SCIENCE BEHIND GREEN BUILDING RATING SYSTEMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                           THE SCIENCE BEHIND
                     GREEN BUILDING RATING SYSTEMS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND
                               OVERSIGHT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                          TUESDAY, MAY 8, 2012

                               __________

                           Serial No. 112-82

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
74-061                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3c5b4c537c5f494f485459504c125f535112">[email&#160;protected]</a>  


              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

              Subcommittee on Investigations and Oversight

                   HON. PAUL C. BROUN, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         PAUL D. TONKO, New York
    Wisconsin                        ZOE LOFGREN, California
SANDY ADAMS, Florida                 BRAD MILLER, North Carolina
RANDY HULTGREN, Illinois             JERRY McNERNEY, California
LARRY BUCSHON, Indiana                   
DAN BENISHEK, Michigan                   
VACANCY                                  
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas


                            C O N T E N T S

                          Tuesday, May 8, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Paul C. Broun, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    13
    Written Statement............................................    14

Statement by Representative Brad Miller, Substituting for Ranking 
  Minority Member Paul D. Tonko, Subcommittee on Investigations 
  and Oversight, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    15
    Written Statement............................................    17

                          Witnesses, Panel I:

Dr. Kathleen Hogan, Deputy Assistant Secretary for Energy 
  Efficiency, Office of Energy Efficiency and Renewable Energy, 
  Department of Energy
    Oral Statement...............................................    18
    Written Statement............................................    20

Mr. Kevin Kampschroer, Director of the Office of Federal High-
  Performance Green Buildings, General Services Administration
    Oral Statement...............................................    27
    Written Statement............................................    29

Discussion                                                           38

                          Witnesses, Panel II:

Mr. Ward Hubbell, President, U.S. Green Building Initiative
    Oral Statement...............................................    42
    Written Statement............................................    44

Mr. Roger Platt, Senior Vice President, Global Policy and Law, 
  U.S. Green Building Council
    Oral Statement...............................................    56
    Written Statement............................................    58

Dr. John Scofield, Professor of Physics, Oberlin College
    Oral Statement...............................................    65
    Written Statement............................................    67

Mr. Victor Olgyay, Principal Architect, Built Environment Team, 
  Rocky Mountain Institute
    Oral Statement...............................................    72
    Written Statement............................................    74

Mr. Tom Talbot, CEO, Glen Oak Lumber and Milling of Wisconsin
    Oral Statement...............................................    87
    Written Statement............................................    89

Discussion.......................................................    93

              Appendix: Answers to Post-Hearing Questions

Dr. Kathleen Hogan, Deputy Assistant Secretary for Energy 
  Efficiency, Office of Energy Efficiency and Renewable Energy, 
  Department of Energy...........................................   100

Mr. Kevin Kampschroer, Director of the Office of Federal High-
  Performance Green Buildings, General Services Administration...   104

Mr. Ward Hubbell, President, U.S. Green Building Initiative......   115

Mr. Roger Platt, Senior Vice President, Global Policy and Law, 
  U.S. Green Building Council....................................   117

Dr. John Scofield, Professor of Physics, Oberlin College.........   123

Mr. Victor Olgyay, Principal Architect, Built Environment Team, 
  Rocky Mountain Institute.......................................   124

Mr. Tom Talbot, CEO, Glen Oak Lumber and Milling of Wisconsin....   125

             Appendix 2: Additional Material for the Record

Green Building Certification Systems Hearing Follow-Up Items.....   134

Written Testimony of Ronald E. Jarnagin, Former ASHRAE President.   136

Statement for the Record on Behalf of the National Association of 
  HomeBuilders...................................................   146

Statement for the Record by Subcommittee Ranking Member Paul D. 
  Tonko..........................................................   153


            THE SCIENCE BEHIND GREEN BUILDING RATING SYSTEMS

                              ----------                              


                          TUESDAY, MAY 8, 2012

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Paul Broun 
[Chairman of the Subcommittee] presiding.

[GRAPHIC] [TIFF OMITTED] T4061.001

[GRAPHIC] [TIFF OMITTED] T4061.002

[GRAPHIC] [TIFF OMITTED] T4061.003

[GRAPHIC] [TIFF OMITTED] T4061.004

[GRAPHIC] [TIFF OMITTED] T4061.005

[GRAPHIC] [TIFF OMITTED] T4061.006

[GRAPHIC] [TIFF OMITTED] T4061.007

[GRAPHIC] [TIFF OMITTED] T4061.008

[GRAPHIC] [TIFF OMITTED] T4061.009

[GRAPHIC] [TIFF OMITTED] T4061.010

[GRAPHIC] [TIFF OMITTED] T4061.011

    Chairman Broun. The Subcommittee on Investigations and 
Oversight will come to order.
    Good morning. Welcome to today's hearing entitled ``The 
Science Behind Green Building Ratings Systems.'' You will find 
in front of you packets containing our witness panel's written 
testimony, their biographies, and their Truth in Testimony 
disclosures. I now recognize myself for five minutes for an 
opening statement.
    The Federal Government is a major developer and operator of 
commercial buildings nationwide. The energy consumption of 
these buildings is a significant expense to taxpayers. Since 
federal buildings tend to be left untouched for many years, 
upfront investments in truly energy-saving technologies can 
save taxpayer dollars in the long run. One only has to walk 
along Pennsylvania Avenue to see how long some federal 
buildings go without energy efficient upgrades.
    Ongoing efforts by the Department of Energy have led to the 
development of new technologies and strategies to reduce 
federal building energy consumption and its related energy 
bill. Many of these efforts reflect common sense approaches to 
saving money, such as more efficient air conditioners and 
better insulation. There are other efforts that I have concerns 
with, such as the $10 million L Prize award from the Department 
of Energy to the manufacturer of a $50 LED light bulb. Even 
with taxpayer subsidies, a $50 light bulb has a very long 
payback period, if ever.
    The Energy Independence and Security Act of 2007 directed 
DOE to choose one or more third-party rating systems every five 
years for federal buildings. I have several questions about how 
this process has worked in the past and how it will work in the 
future. In 2007, GSA and DOE chose the LEED rating system and 
the Federal Government has used this system on a large number 
of projects. I am interested in learning how the Federal 
Government has benefited from using LEED over the past five 
years. Specifically, are we saving taxpayers money as a result 
of LEED standards? The current five-year cycle is coming to a 
close and the Pacific Northwest National Lab released its 
review of private-sector green building certification systems 
just last week.
    Our second panel contains representatives from two of the 
three certification systems that were studied in detail in the 
report, LEED and Green Globes. As private entities, they are 
free to operate as they wish. However, both of these entities 
directly benefit financially from the Federal Government paying 
them to use their rating systems. I would like to hear about 
the differences between the two systems, why these differences 
exist, and why one is more deserving of taxpayer dollars. I 
would also like to learn why both of these rating systems are 
more effective than one that could be developed by DOE and GSA 
themselves.
    I am also concerned that consensus appears to be missing in 
some cases. For example, the timber certification standards 
recognized by the two rating systems represented here today are 
quite different. What scientific basis, if any, exists to 
explain this difference? Why is some of Mr. Talbot's wood 
effectively devalued by a government adoption of a third-party 
standard? Does GSA and DOE agree with the preference for FSC 
wood in LEED and its impact on Mr. Talbot's business and his 
employees?
    Recent proposed changes to LEED for 2012 also appear to 
penalize some common building materials with little or no basis 
in science, such as PVC piping. I am not sure why PVC piping in 
a warehouse is such a concern. Shouldn't we instead be focusing 
on saving taxpayer dollars rather than social engineering?
    As the Science Committee, we should be guided by metrics 
that identify where government investments will have the most 
cost-effective impact. A full life cycle assessment can help 
determine which of potentially many choices has the lowest 
overall cost, and prior investments should be verified by peer-
reviewed research to ensure that taxpayer dollars were spent 
properly.
    As I have said before, our Nation is in an economic crisis 
with high debt and high unemployment. Adopting standards for 
federal buildings that truly save the taxpayers money and put 
Americans back to work is a good idea. In contrast, adopting 
standards that don't save taxpayer money or tell American 
workers that the products that they make are not welcome in 
federal buildings defies common sense.
    [The prepared statement of Dr. Broun follows:]

       Prepared Statement of Subcommittee Chairman Paul C. Broun

    The Federal Government is a major developer and operator of 
commercial buildings nationwide. The energy consumption of these 
buildings is a significant expense to taxpayers. Since federal 
buildings tend to be left untouched for many years, up-front 
investments in truly energy-saving technologies can save taxpayer 
dollars in the long run. One only has to walk along Pennsylvania Avenue 
to see how long some federal buildings go without energy efficiency 
upgrades.
    Ongoing efforts by the Department of Energy have led to the 
development of new technologies and strategies to reduce federal 
building consumption and the related energy bill. Many of these efforts 
reflect common sense approaches to saving money, such as more efficient 
air conditioners and better insulation. There are other efforts that I 
have concerns with, such as the $10 million ``L Prize'' award from the 
Department of Energy to the manufacturer of a $50 LED light bulb. Even 
with taxpayer subsidies, a $50 light bulb has a very long payback 
period.
    The Energy Independence and Security Act of 2007 directed DOE to 
choose one or more third-party rating systems every five years for 
federal buildings. I have several questions about how this process has 
worked in the past and how it will work in the future. In 2007, GSA and 
DOE chose the LEED rating system, and the Federal Government has used 
this system on a large number of projects. I am interested in learning 
how the Federal Government has benefited from using LEED over the past 
five years. Specifically, are taxpayers saving money as a result of 
LEED standards?
    The current five-year cycle is coming to a close, and the Pacific 
Northwest National Lab released its review of private-sector green 
building certification systems last week. Our second panel contains 
representatives from two of the three certification systems that were 
studied in detail in the report, LEED and Green Globes. As private 
entities, they are free to operate as they wish. However, both of these 
entities directly benefit financially from the Federal Government 
paying them to use their rating systems. I'd like to hear about the 
differences between the two systems, why these differences exist, and 
why one is more deserving of receiving taxpayer dollars. I'd also like 
to learn why both of their rating systems are more efective than one 
that could be developed by DOE and GSA themselves.
    I am also concerned that consensus appears to be missing in some 
cases. For example, the timber certification standards recognized by 
the two rating systems represented today are different. What scientific 
basis, if any, exists to explain this difference? Why is some of Mr. 
Talbot's wood effectively devalued by a government adoption of a third-
party standard? Do GSA and DOE agree with the preference for FSC wood 
in LEED and its impact on Mr. Talbot's business and his employees?
    Recently proposed changes to LEED for 2012 also appear to penalize 
some common building materials with little to no basis in science, such 
as PVC piping. I'm not sure why PVC piping in a warehouse is such a 
concern. Shouldn't we instead be focusing on saving taxpayer dollars 
rather than social engineering?
    As the Science Committee, we should be guided by metrics that 
identify where federal investments will have the most cost-effective 
impact. A full life cycle assessment can help determine which of 
potentially many choices has the lowest overall cost. And prior 
investments should be verified by peer-reviewed research to ensure that 
taxpayer dollars were spent properly.
    As I've said before, our Nation is in an economic crisis with high 
debt and unemployment. Adopting standards for federal buildings that 
truly save the taxpayer money and put Americans to work is a good idea. 
In contrast, adopting standards that don't save taxpayer money or tell 
American workers that the products they make are not welcome in federal 
buildings defies common sense.

    Chairman Broun. I now recognize the Ranking Member, Mr. 
Miller, for five minutes.
    Mr. Miller. Thank you, Chairman Broun. I am actually not 
the Ranking Member, but I am stepping in this morning for my 
friend, Mr. Tonko, who has pressing business in his district.
    The American people are way ahead of Congress on the need 
for energy efficiency, and they are getting impatient. A survey 
released in March by the nonpartisan Civil Society Institute 
found that three out of four Americans, 76 percent, including 
58 percent of Republicans, 83 percent of independents, 88 
percent of Democrats, think the United States should move to a 
sustainable energy future through ``a reduction in our reliance 
on nuclear power, natural gas and coal and instead launch a 
national initiative to boost renewable energy and energy 
efficiency.'' The same survey found that more than three out of 
four Americans, 77 percent, including 70 percent of 
Republicans, 76 percent of independents, 85 percent of 
Democrats, believe that, quoting again, ``The energy industry's 
extensive and well-financed public relations campaign 
contributions and lobbying machine is a major barrier to moving 
beyond business as usual when it comes to America's energy 
policy.''
    No plan to increase energy efficiency can leave out 
buildings. America's buildings account for more than 40 percent 
of our primary energy consumption. By 2030, we will see almost 
two-thirds of our existing buildings replaced with new 
buildings or renovated. We have a terrific opportunity to drive 
efficiency into building energy consumption if we adopt smart 
standards.
    Today the Committee will discuss this evolving building 
industry. We will examine standards surrounding green buildings 
and also high-performance green buildings. As has often been 
true in the past, the Federal Government has turned to the 
private sector for guidance on building efficiency standards. 
The first OSHA rules were cribbed entirely from private 
industry's voluntary workplace safety standards published by 
the American National Standards Institute, ANSI, and those are 
the right standards. There were bad actors in industry who were 
willing to put their workers' lives at risk to save a buck but 
most of industry really did want to do the right thing and 
struck the right balance at the time between the need for 
workplace safety and cost, and OSHA's first rules were almost 
word for word those ANSI standards.
    Similarly, GSA, in applying the Energy Independence 
Security Act for energy efficiency in federal buildings, also 
largely relied on the rating system published by the Leadership 
in Energy and Environmental Design, LEED, a private-sector 
effort. Are those standards or the standards of the Green Globe 
rating system, another private-sector system, the right 
standards for now? And how can we make sure that those 
standards remain properly demanding as our energy technologies 
improve?
    Green building is simply construction aimed at reducing the 
overall environmental effects of a building in its construction 
and operation. High-performance green building takes the 
additional steps of weighing the uses of the building against 
the environmental costs of the building, looking for ways to 
increase environmental performance while taking into account 
the activities that will be housed in that space. For example, 
a high-performance green building integrates and optimizes on a 
life cycle basis--a lot of jargon today--all major high-
performance attributes including energy conservation, 
environment, safety, security, durability, accessibility, cost, 
benefits, productivity, sustainability, functionality and 
operational considerations.
    It is not easy right now to create a high-performance green 
building because you need to mix complex technologies to meet 
all of those performance attributes. Even after building 
completion, systems rarely work together to improve overall 
energy efficiency and environmental performance.
    The inefficiencies resulting from this fragmentation of 
building components and systems and the lack of monitoring and 
verification of building performance point to a need for a more 
integrated approach to building design, construction, operation 
and technology development. While the current array of rating 
systems are useful, they can be improved to support building 
performance better.
    With broad support by both Republicans and Democrats, 
Congress has recognized the need to build high-performance 
buildings by passing several energy bills with strong 
efficiency targets and provisions requiring adoption of 
standards and sustainability principles that will lead to high-
performance federal buildings. By adopting these requirements, 
the Federal Government is leading the way to more efficient and 
better performing buildings. The Federal Government's portfolio 
of more than 500,000 buildings functions as a laboratory, 
provides us a laboratory for new technologies and whole 
buildings that are working to meet demanding standards, 
encouraging innovation in the private sector and driving down 
the costs for consumers.
    We should ask how those investments are performing and 
whether our standards are driving significant reductions in 
energy consumption. We should be looking for the strongest 
models and constantly improving our analytical abilities for 
design and performance based on real-world lessons. However, 
there is no question that the Federal Government can help drive 
change in the market, not just our own buildings, which are 
significant enough, but change in the market, driving 
innovation and savings that will have wide-ranging benefits in 
reducing demand for energy, a cleaner environment and public 
health benefits.
    I hope this hearing will illustrate to the American people 
that Congress can work together to ensure tax dollars are spent 
in a way that represents their strong views in support of 
sustainable energy.
    Thank you, Mr. Chairman. I yield back. Actually, I had no 
time to yield.
    [The prepared statement of Mr. Miller follows:]

        Prepared Statement of Acting Ranking Member Brad Miller

    This statement is not available.

    Chairman Broun. Thank you, Mr. Miller, and I don't think 
you will find any disagreement with the statement that you just 
made that the Federal Government being engaged in making 
decisions and picking winners and losers certainly is going to 
drive the marketplace, and I think it should be the other way 
around. The marketplace drives policy, and I think the 
marketplace unencumbered by taxes and government regulations is 
the best way to control quality, quantity and cost of all goods 
and services, including my business of health care.
    Now, if there are Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.
    At this time I would like to introduce our first panel of 
witnesses: Dr. Kathleen Hogan, the Deputy Assistant Secretary 
for Energy Efficiency at the Office of Energy Efficiency and 
Renewable Energy of the Department of Energy, and Mr. Kevin 
Kampschroer. Is that how you pronounce your name?
    Mr. Kampschroer. Kampschroer, please.
    Chairman Broun. Kampschroer. I will try to remember that. 
My name is Broun, but it is spelled B-r-o-u-n, so I try to be 
very--I will try to keep that right. But Mr. Kampschroer is the 
Director of the Office of Federal High-Performance Green 
Buildings at the General Services Administration.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which the members of the Committee 
will be given five minutes each to ask questions. Your written 
testimony will be included in the record of the hearing.
    It is the practice of the Subcommittee on Investigations 
and Oversight to receive our testimony under oath. Do either of 
you have an objection to taking an oath?
    Mr. Kampschroer. No, sir.
    Dr. Hogan. No.
    Chairman Broun. Okay. Let the record reflect that both of 
them are certainly willing to take the oath. Now, either of you 
may be represented by counsel. Do either of you have counsel 
with you here today?
    Dr. Hogan. No.
    Mr. Kampschroer. No, sir.
    Chairman Broun. Okay. Very good. Let the record reflect 
that the witnesses do not have counsel. Now, if you all would 
stand and raise your right hand? Do you solemnly swear to tell 
the truth, the whole truth and nothing but the truth, so help 
you God? Okay. You may be seated. Let record reflect that the 
witnesses participating have taken the oath.
    Now I recognize our first witness, Dr. Hogan. Ma'am, you 
are recognized for five minutes. If you could, try to keep it 
within that five-minute period. I would appreciate it. Thank 
you.

                STATEMENT OF DR. KATHLEEN HOGAN,

       DEPUTY ASSISTANT SECRETARY FOR ENERGY EFFICIENCY,

                OFFICE OF ENERGY EFFICIENCY AND

             RENEWABLE ENERGY, DEPARTMENT OF ENERGY

    Dr. Hogan. Thank you. Chairman Broun, Member Miller and 
other Members of the Subcommittee, thank you for the 
opportunity to discuss the Department of Energy's initiatives 
with energy-efficient and sustainable buildings.
    Increasing the efficiency of our Nation's buildings is an 
important focus for the Department, for many of the reasons you 
have already mentioned, and then including the fact that the 
large energy bill can be reduced by 20 to 50 percent or more 
cost-effectively through a variety of approaches.
    To achieve these savings, the Department supports research 
and development of new advanced technologies as well as 
supports programs to accelerate their adoption and use. In 
addition to saving energy, money, this of course also creates 
domestic jobs and helps protect our environment. Today I would 
like to make five points in this area.
    First, the Federal Government does pursue a range of energy 
and other goals, goals set by Congress as well as the executive 
branch, which form an overriding portfoliowide framework for 
the government's sustainability efforts, and the government is 
making great strides in many of these goal areas. The key goals 
that have been established through EPAct 2005, EISA 2007 and 
Executive Orders that particularly drive improvements in 
federal buildings include ones for energy intensity, water 
intensity, greenhouse gas reduction, renewable energy, 
sustainable procurement and data center efficiency among 
others, and recent achievements in these areas are quite 
substantial. It includes reductions in energy use per square 
foot by about 15 percent, reductions in water use intensity by 
more than 10 percent, use of renewable energy sources for more 
than five percent of electricity, and of course, the impact for 
savings are quite meaningful across the broad portfolio of 
federal buildings.
    The second point I want to make is about the Department of 
Energy's Federal Energy Management Program, or FEMP, which 
provides assistance across the government to help achieve these 
goals cost effectively for the taxpayer. FEMP was established 
to provide services, tools, expertise to help the federal 
agencies address the many complex issues with these efforts and 
to achieve their energy and sustainability goals. As an 
example, since 2006, FEMP has assisted federal agencies in 
saving over $5 billion in energy costs over the average life of 
efficiency measures implemented through energy savings 
performance contracts, and FEMP is now working with federal 
agencies to, among other efforts, help them achieve substantial 
additional savings through the Better Buildings Challenge, an 
effort to engage in $2 billion in additional performance-based 
contracting by December 2014. FEMP is also implementing a 
tracking database pursuant to EISA 2007 that will provide 
building performance data for metered buildings as well as data 
on available and untapped cost-effective energy savings 
measures as well as water.
    The third point I want to make is that DOE is making 
progress on its responsibilities under EISA to consult with GSA 
and the Defense Department to identify a green building 
certification system for the Federal Government. We drafted a 
proposed rule, presented it at a public hearing in 2010, and it 
is important, I think, to note that in this proposed rule, DOE 
did not propose to pick a particular third-party certification 
system but chose instead to allow federal agencies to use any 
third-party certification system that would meet the statutory 
criteria with the addition of one criterion that the 
certification system include verification post occupancy. We 
are currently responding to public comments and drafting the 
final rule for the certification criteria. In addition, we are 
working with GSA and the Defense Department in GSA's most 
recent study that you will all hear more about.
    Fourth, DOE is advancing a broad building research and 
development portfolio to improve building efficiency as well as 
the other important things here, improving comfort and lowering 
energy bills. We have goals to reduce the energy required to 
operate new buildings by 50 percent and to reduce energy 
required to operate existing commercial and residential 
buildings by 50 and 40 percent, respectively. We are also 
working on the new Better Buildings Challenge to work with a 
variety of organizations to improve the efficiency in the 
marketplace by 20 percent or more across the whole portfolio of 
buildings that organizations have. We have great participation 
in this effort as of December 2011.
    I think the last point I want to make is that we undertake 
all of these efforts in strong coordination with our federal 
peers. We routinely coordinate with agencies such as DOD, NIST, 
GSA, Department of Housing, and EPA on these initiatives. We 
have memorandums of understanding in place that outline 
coordination mechanisms, rules and responsibilities, and we 
have regular exchanges.
    In summary, I think we are making great progress improving 
the efficiency of our Nation's buildings and saving money. 
There clearly remains a lot of additional opportunity in the 
federal sector and across the country and efforts that can 
build jobs, save energy and protect our environment.
    We appreciate the opportunity to be here to comment on 
DOE's role, and I am happy to address your questions.
    [The prepared statement of Dr. Hogan follows:]

    [GRAPHIC] [TIFF OMITTED] T4061.012
    
    [GRAPHIC] [TIFF OMITTED] T4061.013
    
    [GRAPHIC] [TIFF OMITTED] T4061.014
    
    [GRAPHIC] [TIFF OMITTED] T4061.015
    
    [GRAPHIC] [TIFF OMITTED] T4061.016
    
    [GRAPHIC] [TIFF OMITTED] T4061.017
    
    [GRAPHIC] [TIFF OMITTED] T4061.018
    
    Chairman Broun. Thank you, Dr. Hogan.
    Mr. Kampschroer, you are recognized for five minutes, sir.

              STATEMENT OF MR. KEVIN KAMPSCHROER,

               DIRECTOR OF THE OFFICE OF FEDERAL

               HIGH-PERFORMANCE GREEN BUILDINGS,

                GENERAL SERVICES ADMINISTRATION

    Mr. Kampschroer. Thank you. Good morning, Chairman Broun, 
Member Miller and Members of the Subcommittee. My name is Kevin 
Kampschroer, and I am the Director of the Office of Federal 
High-Performance Green Buildings within GSA's Office of 
Government-wide Policy. Thank you for inviting me today to 
discuss our work on the Green Building Certification System 
review as well as the Federal Government's role in using sound 
science and peer-reviewed studies to evaluate and implement 
advanced building technologies. I am submitting my testimony 
for the record.
    Today I will highlight our use of tools that help us 
achieve building performance requirements, including the use of 
green building certification systems. Congress, in the past two 
Administrations at least, has set aggressive building 
performance goals through law and Executive Order that the 
Federal Government must meet. In establishing these building 
performance requirements, Congress, the Administration, the 
Chair and the Ranking Member have all mentioned that buildings 
use almost 40 percent of U.S. energy, 70 percent of 
electricity, 13 percent of our freshwater resources and form 
part of an indoor environment where Americans spend 90 percent 
of their time. With these enormous impacts also comes the 
opportunity for a variety of benefits. Compared to average 
buildings, high-performance buildings use less energy, water 
and material resources, have better indoor environmental 
quality, reduce air and water pollution and produce less waste.
    To accomplish these goals set in statute and Executive 
Order, the Federal Government needs to use every tool available 
to evaluate, to measure and to improve building performance. We 
rely on the best data available to make decisions about which 
tools to use, whether it be peer-reviewed research or case 
studies.
    One tool the Federal Government uses to evaluate and 
measure building performance is green building certification 
system. Just as with other tools, green building certification 
systems have evolved over time. In recognition of this, 
Congress included a requirement within the Energy Independence 
and Security Act of 2007 for GSA to evaluate and compare 
available third-party green building certification systems. 
EISA also requires that the GSA Administrator recommend a 
comprehensive approach to the Secretary of Energy, who in 
consultation with the Secretary of Defense and other 
appropriate parties will encourage the governmentwide 
certification of green federal buildings.
    My office is currently conducting our review focusing on 
new construction, major renovations and existing buildings. We 
are subjecting our review to a rigorous, thorough and 
transparent process which will include the opportunity for 
public comment before we make a recommendation to the Secretary 
of Energy. On May 3, my office released the facts and findings 
from a study conducted by the Pacific Northwest National 
Laboratory. Three systems met the minimum expectations of a 
green building certification system with respect to EISA: Green 
Building Initiatives, Green Globes, U.S. Green Building 
Council's Leadership in Energy and Environmental Design, and 
the International Living Building Institute's Living Building 
Challenge. Though the study provides no recommendations, it 
does conclude that none of the systems we have reviewed meet 
100 percent of the Federal Government's needs.
    I have asked the Department of Energy and the Department of 
Defense, and they have agreed to co-chair an interagency 
taskforce to work through the issues around building 
performance requirements and including the applicability of 
ASHRAE standard 189.1 using our recently published study to 
guide the discussions. There are six planned meetings for the 
interagency taskforce with the first meeting scheduled on May 
17. Given the high level of interest, we are planning listening 
sessions where the public can provide input both in person and 
remotely. Prior to submitting our recommendation to the 
Secretary of Energy, my office will publish the interagency 
taskforce conclusions in the Federal Register and will solicit 
comments from the public over a period of 60 days. Only after 
taking into consideration the deliberations of the interagency 
taskforce and the public comments from the listening sessions 
and the Federal Register notice will the GSA Administrator make 
his or her final recommendation to the Secretary of Energy, 
which we anticipate to be in the fall.
    Another tool GSA and other federal agencies use to improve 
building performance is the energy savings performance 
contract, which is a contracting vehicle that allows agencies 
to accomplish energy projects for their facilities with 
private-sector engineering, design and funding for upfront 
capital costs. The investment is paid back through guaranteed 
cost savings from building improvements that save energy and 
water at the facility.
    Last fall, my office, in collaboration with DOE's Federal 
Energy Management Program, launched a program to enhance and 
increase the use of these contracts across the government, and 
it coincides with providing advice to all the agencies 
participating in the $2 billion challenge that Dr. Hogan just 
mentioned. We will use GSA buildings nationwide to demonstrate 
how to use ESPCs to achieve maximum savings possible with no 
artificial limit on the use of technologies.
    Thank you again for this opportunity to come before you. 
All of us in the Federal Government who are managing its real 
property inventory are excited by the contribution that 
Congress has allowed us to make. I am available to answer any 
questions you may have. Thank you.
    [The prepared statement of Mr. Kampschroer follows:]

    [GRAPHIC] [TIFF OMITTED] T4061.019
    
    [GRAPHIC] [TIFF OMITTED] T4061.020
    
    [GRAPHIC] [TIFF OMITTED] T4061.021
    
    [GRAPHIC] [TIFF OMITTED] T4061.022
    
    [GRAPHIC] [TIFF OMITTED] T4061.023
    
    [GRAPHIC] [TIFF OMITTED] T4061.024
    
    [GRAPHIC] [TIFF OMITTED] T4061.025
    
    [GRAPHIC] [TIFF OMITTED] T4061.026
    
    [GRAPHIC] [TIFF OMITTED] T4061.027
    
    Chairman Broun. Thank you, Mr. Kampschroer. I thank you 
both for your testimony, reminding Members that Committee rules 
limit questioning to five minutes. The Chair at this point will 
open the first round of questions. The Chair recognizes himself 
for five minutes.
    Mr. Kampschroer, I understand that your deputy is a federal 
liaison to the board of directors of U.S. Green Building 
Council and his trips to their board meetings are paid for by 
U.S. taxpayers. Can you please provide for the record a list of 
all of the board meetings that he has attended and in what 
capacity? And finally, can you explain to the Committee why it 
is that a senior GSA employee has such a role in an entity that 
is competing for and receiving taxpayer dollars, even with a 
recusal system in place? Doesn't it send the wrong message to 
GSA employees and the USGBC competitors?
    Mr. Kampschroer. Mr. Horn has been a federal advisor to the 
U.S. Green Building Council. We have also had federal advisors 
to the board of the Green Building Initiative. It is part of 
our participation in the development of standards. The matter 
of payment for trips to the board is a standard which we have 
reviewed by our general counsel and meets the guidelines that 
GSA has set out for non-federal source travel, so most of the 
travel is actually not paid for by the American taxpayer.
    Chairman Broun. Well, if you would provide a list of those 
meetings as I requested as well as----
    Mr. Kampschroer. I would be happy to.
    Chairman Broun. As you and I know, GSA is under a 
microscope for the travel and things that have occurred in the 
news recently.
    Mr. Kampschroer, what is the total amount of taxpayer 
dollars' that GSA has spent on LEED certification costs?
    Mr. Kampschroer. I can get that information for you. I do 
not know off the top of my head.
    Chairman Broun. Okay. If you would, please provide that for 
the Committee.
    Dr. Hogan, how does energy efficiency rank compared to 
other criteria in determining what is a green building?
    Dr. Hogan. Yes, so as we talked about green means many 
things and there are multiple pathways to get to green, and as 
the Department of Energy and really all of the federal agencies 
pursue the large number of goals that we have for energy 
efficiency, water efficiency, there is a lot of emphasis put on 
those pathways that get you to green that also really help you 
meet the goals that have been set by Congress as well as the 
Executive Orders. So that would mean that energy efficiency 
ranks quite high in what we look for when we go down the path 
to seeking a high-performance or certified building as part of 
the federal fleet.
    Chairman Broun. I didn't hear a clear definition there, but 
that is fine. I don't think any member of this Committee would 
disagree with us seeking energy efficiency. I think where the 
disagreement would arise is between something that Mr. Miller 
said in his opening statement about going to totally renewable 
resources and that process of trying to get away from fossil 
fuels, which my Democratic colleagues seem to hate, and that we 
need to utilize those God-given energy resources in a 
economically and environmentally sustainable way. I don't think 
any of us want to see clean air--or dirty air or dirty water.
    Mr. Kampschroer, the National Technology Transfer and 
Advancement Act requires federal agencies to recognize and 
incorporate existing consensus standards and policy 
initiatives. How do you respond to the lack of OMB and ANSI-
defined consensus in the U.S. green buildings rating 
development process?
    Mr. Kampschroer. In our most recent review, both LEED and 
Green Globes seemed to meet the criteria for a consensus-based 
standard. We are also engaging with the National Institutes of 
Science and Technology, or NIST, to review that finding as they 
are the people who aid all of the government in the 
interpretation of this law and the implementing OMB Circular 
119.
    Chairman Broun. Very quickly, how can you be certain of the 
true environmental benefits of your green building policies?
    Mr. Kampschroer. Through, as Dr. Hogan mentioned, rigorous 
measurements post renovation and post operation over time.
    Chairman Broun. Okay. Thank you, sir.
    My time is expired. I now recognize Mr. Miller for five 
minutes.
    Mr. Miller. Thank you, Mr. Chairman. I will start providing 
you a copy of my statement in writing so that you do not rely 
upon your apparently imperfect ability to comprehend it as you 
hear it read aloud. I certainly did not say what you said I 
said in my statement.
    Chairman Broun. If I misinterpreted, I apologize.
    Mr. Miller. Well, I said that we should reduce--I said the 
American people think we should reduce--overwhelmingly, the 
American people think we should reduce our reliance on fossil 
fuels--I certainly did not say in my statement we should end 
the use of fossil fuels--and that we should support energy-
efficient technologies.
    Now, I am puzzled by where we are in the standards here. 
Was I incorrect, either of you, when I said in my statement 
that we really began with industry standards, that no 
government agency is promulgating energy-efficient standards 
for buildings, you are sort of starting with those that are 
developed by private sector, the rating systems that we talked 
about private-sector efforts, industry efforts. Is that right? 
I mean, we heard before, and we hear frequently about 
government picking winners and losers. We heard it in the 
commentary immediately after my statement, that government is 
picking winners and losers, although I made it very clear in my 
statement, I think, that government is actually trying to use 
what industry is developing. We are working with industry. Is 
that right, Ms. Hogan, or is that Dr. Hogan?
    Dr. Hogan. Either will work.
    Mr. Miller. Okay.
    Dr. Hogan. So you are right. So we are not--what the 
Department of Energy put out in a proposed rule in the area of 
green building certifications in 2010, which is still in 
process but what we put out in a proposed rule in 2010 
established a set of criteria, largely picking from the 
criteria or using the criteria enumerated in EISA 2007 and 
adding one additional that said the federal agencies could go 
and choose a third-party certification system, any one that 
would meet these criteria. So we are not setting or developing 
our own certification, we are enumerating based on largely what 
Congress gave us a set of criteria that we think are the ones 
that will deliver the benefits we all are looking for and then 
the agencies can choose based on if they want to what is out 
there in the marketplace that has been developed by industry as 
long as they would meet those criteria.
    Mr. Miller. Okay. And I don't think anyone would suggest 
you should just blindly follow something developed by some 
third-party group. You should do some analysis to figure out 
whether those are the right standards.
    Mr. Kampschroer, first of all answer the same question that 
Dr. Hogan just answered, but also, what studies do you plan to 
do in the future to determine the benefits of high-performance 
building and whether the measures being adopted are the right 
ones, the most cost-efficient ones, the ones that will lead to 
the most energy efficiency for the cost?
    Mr. Kampschroer. Thank you. Briefly, I think it is 
worthwhile distinguishing between green building certification 
systems, which are used to measure the delivery of projects to 
the government, and standards which might be used as a form of 
specification. Generally speaking, the government does not use 
the green building certification systems as a way to specify 
what is desired but rather as a way to measure what is 
delivered. Standards such as ASHRAE 90.1 or the energy code are 
used to specify minimum performance levels, and in fact, EPAct 
requires us to be 30 percent better than ASHRAE Standard 90.1.
    As to the question of benefits and measures, I think this 
is a key point. We have seen that in not all cases do buildings 
actually perform at the level they are designed to perform 
regardless of certification level or whether or not the 
building has been certified. So a significant reason for doing 
the demonstration project research that we are doing in 
conjunction with the Department of Energy and others is to 
measure the benefits in detail, publish them in a way and then 
take that research and apply it to other buildings. So I think 
the key thing here is really accurate measurement over an 
extended period to see how buildings are performing.
    Mr. Miller. Is the way that you are using these third-party 
rating systems and the way that you have described it 
substantially different from the way that they are being used 
in industry?
    Mr. Kampschroer. I think it is, in some cases, different 
than industry. I think, in some cases, building owners are 
using green building certification systems in lieu of providing 
detailed performance requirements for their buildings. The 
government does not do that.
    Mr. Miller. My time is expired, as you were about to say, 
Mr. Chairman.
    Chairman Broun. I was indeed. Thank you so much, Mr. 
Miller.
    Now, Dr. Bucshon, you are recognized for five minutes.
    Mr. Bucshon. Thank you, Mr. Chairman.
    For Dr. Hogan, drafts of the LEED 2012 proposed a credit 
for the avoidance of certain products commonly used today. Has 
the DOE or its lab studied how this would impact federal energy 
savings goals or increase the cost of federal buildings?
    Dr. Hogan. We have not at this time studied that.
    Mr. Bucshon. Do the federal buildings being built today, 
are the windows, are they made of vinyl? Are we using foam 
insulation? I mean, how are they being built today?
    Dr. Hogan. The codes that are in place today still allow a 
variety of technologies to meet a performance specification, so 
our codes are largely performance based. Typically, there also 
are tables that demonstrate how you can put together packages 
of certain technologies to meet those performance levels, but 
typically it is technology neutral based on performance.
    Mr. Bucshon. And under potential new standards, would all 
that be the same?
    Dr. Hogan. Yes. Certainly as we participate with code 
bodies and the Department of Energy brings information to the 
table, we are very focused on the performance that can be 
achieved, the energy savings that can be achieved and not 
trying to be prescriptive about what technology gets there.
    Mr. Bucshon. Okay. And Mr. Kampschroer, so the GSA would 
support a credit, and hasn't it routinely used products in the 
past that the credit would potentially penalize?
    Mr. Kampschroer. Potentially, as with the Department of 
Energy, we have not studied this proposed credit yet. It was 
not included in our recent evaluation because it is merely 
proposed and has not actually been incorporated.
    Mr. Bucshon. Okay. I yield back, Mr. Chairman.
    Chairman Broun. Thank you, Dr. Bucshon.
    Now, Mr. McNerney, is he--he is not coming back? Okay. 
Stand by one minute here. We appreciate you all's testimony. 
Members may very well want to give you additional written 
questions. If you would be very expeditious in answering those 
as quickly and as thoroughly as you possibly can, and you are 
now excused, and thank you for your testimony.
    As they are taking their seats, I would like to introduce 
our second panel of witnesses: Mr. Ward Hubbell, the President 
of U.S. Green Building Initiative: Mr. Roger Platt, the Senior 
Vice President for Global Policy and Law of the U.S. Green 
Building Council; Dr. John Scofield, a Professor of Physics at 
Oberlin College; Mr. Victor Olgyay, Principal Architect of the 
Built Environment Team of the Rocky Mountain Institute; and Mr. 
Tom Talbot, the CEO of Glen Oak Lumber and Milling.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which Members of the Committee will 
ask all you all questions. Your written testimony will be 
included in the record of the hearing.
    It is the practice of the Subcommittee on Investigations 
and Oversight to receive testimony under oath. Do any of you 
have an objection to taking an oath? Let the record reflect 
that all witnesses indicated that they are willing to take an 
oath. You also may be represented by counsel. Do any of you 
have counsel with you here today? Let the record reflect that 
all of them indicated that they do not have counsel. If you all 
would please raise your right hand? Do you solemnly swear and 
affirm to tell the whole truth and nothing but the truth, so 
help you God? Thank you. You may be seated. Let record reflect 
that all the witnesses participating have taken the oath.
    And as he takes his seat, I will recognize Mr. Hubbell for 
five minutes, our first witness. Mr. Hubbell.

           STATEMENT OF MR. WARD HUBBELL, PRESIDENT,

                 U.S. GREEN BUILDING INITIATIVE

    Mr. Hubbell. Thank you, Chairman Broun, Mr. Miller and 
other Members of the Committee.
    My organization is the Green Building Initiative. We are 
the exclusive U.S. licensee to Green Globes, an online green 
building assessment and rating system for new and existing 
commercial buildings. The GBI is recognized as a standards 
developer by the American National Standards Institute and 
became the first green building organization to publish an ANSI 
standard for commercial green building. Our organization also 
developed the first third-party certification protocol 
specifically designed to measure compliance with the federal 
guiding principles for sustainable buildings.
    Today, I will describe our rating tools and comment on 
current federal policy regarding green building assessment and 
rating.
    Green Globes is a proven method for evaluating and 
improving the environmental performance of new, renovated and 
existing commercial buildings. It delivers a comprehensive 
sustainability assessment through an interactive, web-enabled 
platform, which results in greater ease of use, lower cost and 
the convenient evaluation of building performance over time. We 
also offer what we believe is the most credible, comprehensive 
and cost-effective third-party certification process that 
exists today.
    Green Globes has been used to certify buildings owned by 
governments, major corporations, small businesses, school 
districts and higher education institutions across the country, 
and has been formally recognized as an equivalent standard to 
LEED in more than 20 U.S. States.
    Green Globes is highly compatible with the federal guiding 
principles for sustainable buildings due to its focus in areas 
such as energy and water conservation, carbon emission 
reduction and continuous improvement. In a study released last 
week, GSA reported that Green Globes for New Construction, and 
I am quoting from the report ``aligns at some level with more 
of the federal sustainability requirements for buildings than 
any other new construction system reviewed by the GSA.''
    One of the reasons Green Globes has been so well received 
in the federal sector is due to some of its unique technical 
features. For example, to measure energy efficiency, Green 
Globes uses the EPA's Energy Star program, which evaluates the 
whole cycle of energy performance. Through Energy Star, our 
users can benchmark their energy performance against actual 
data from similar building types rather than relying on 
hypothetical energy data as other rating systems do. More than 
a third of Green Globes points are weighted to energy and only 
those buildings projected to perform in the top 25 percent of 
buildings nationwide are eligible for energy performance 
points.
    To evaluate the impacts of construction materials, Green 
Globes employs life cycle assessment, a science-based approach 
that measures the environmental footprint of materials based on 
five major criteria: embodied energy, global warming potential, 
and impacts on land, air and water. We provide this information 
through a peer-reviewed, online calculator which we developed 
and incorporated into Green Globes. This tool enables building 
owners to select and be rewarded for using the lowest impact 
materials that can meet the practical demands of their 
building's intended use.
    Other technical features of Green Globes include a focus on 
management criteria over the life cycle of a building and 
incentives to reuse existing buildings and increase building 
durability.
    Now, in addition to Green Globes, we have also developed a 
third-party certification protocol specifically designed to 
measure compliance with the federal guiding principles. 
Executive Order 13514 requires that 15 percent of an agency's 
buildings larger than 5,000 square feet meet the guiding 
principles requirements by fiscal year 2015. Through this 
program, we provide a survey, a third-party on-site assessment, 
a compliance score and rating, and detailed recommendations for 
improvement. To date, nearly 200 federal buildings have gone 
through this program and more are in the pipeline.
    Despite our successful interactions with federal agencies, 
we do not believe there is a level playing field with regard to 
green building certification across the federal sector. The 
Department of Energy and GSA, both of which own or manage many 
buildings in the U.S, continue to have LEED-only policies. We 
believe those policies should be reconsidered in light of GSA's 
own findings regarding Green Globes and due to the availability 
of a guiding principles compliance tool which was designed to 
provide 100 percent alignment with the federal principles.
    In conclusion, we believe that if general performance goals 
are set as they have been, agencies should have the flexibility 
to use a variety of credible tools to help them achieve their 
sustainability goals. Locking federal agencies into a one-size-
fits-all approach, as a LEED-only policy does, constrains the 
federal sector to the limitations of one tool and discourages 
organizations like mine from being innovative, keeping prices 
low and focusing intensely on good customer service. In their 
sustainability plan, GSA lists as one of their accomplishments 
that they are a proving ground for new green building 
technologies. We believe their policy toward green building 
rating systems should reflect that.
    Thank you.
    [The prepared statement of Mr. Hubbell follows:]

    [GRAPHIC] [TIFF OMITTED] T4061.029
    
    [GRAPHIC] [TIFF OMITTED] T4061.030
    
    [GRAPHIC] [TIFF OMITTED] T4061.031
    
    [GRAPHIC] [TIFF OMITTED] T4061.032
    
    [GRAPHIC] [TIFF OMITTED] T4061.033
    
    [GRAPHIC] [TIFF OMITTED] T4061.034
    
    [GRAPHIC] [TIFF OMITTED] T4061.035
    
    [GRAPHIC] [TIFF OMITTED] T4061.036
    
    [GRAPHIC] [TIFF OMITTED] T4061.037
    
    [GRAPHIC] [TIFF OMITTED] T4061.038
    
    [GRAPHIC] [TIFF OMITTED] T4061.039
    
    [GRAPHIC] [TIFF OMITTED] T4061.040
    
    Chairman Broun. Thank you, Mr. Hubbell.
    Now, Mr. Platt, you are recognized for five minutes.

                 STATEMENT OF MR. ROGER PLATT,

                     SENIOR VICE PRESIDENT,

                     GLOBAL POLICY AND LAW,

                  U.S. GREEN BUILDING COUNCIL

    Mr. Platt. Thank you, Chairman Broun, Member Miller, 
Members of the Committee. I am here today on behalf of the U.S. 
Green Building Council, a nonprofit with more than 13,000 
organizational members, the vast majority of which are small 
businesses. We have 75 local chapters covering all 50 states, 
which represent 30,000 individual members. I am Roger Platt, 
the Senior Vice President at USGBC.
    I am here today to tell you what our organization does to 
encourage and recognize best practices in the design, 
construction and, most importantly, perhaps, in the operation 
of high-performance buildings. We are best known for our LEED 
rating system, L-E-E-D, stands for Leadership in Energy and 
Environmental Design, and the system provides a verifiable 
framework for driving energy efficiency, water conservation, 
waste reduction and best practices in building design and 
performance.
    Today, LEED-certified and registered projects represent 
more than 8 billion square feet of commercial real estate. As a 
point of reference, the island of Manhattan has roughly 400 
million square feet of commercial office space. LEED projects 
cover that many times.
    We have also trained a workforce of nearly 200,000 LEED-
accredited professionals in the United States and globally. 
That is a whole new category of jobs.
    Let me turn first to why and how LEED was developed. 
Buildings in this country account for 40 percent of our 
Nation's energy consumption and more than 70 percent of our 
electricity use. Collectively, we spend nearly $400 billion a 
year to power all of these buildings. According to a recent 
McKinsey and Co study, more than 30 percent of that money, or 
$130 billion, is wasted. Building industry professionals from 
private and public sector helped establish LEED back in 2000, 
12 years ago, as a way to reduce this waste and expense. Over 
the past 12 years, LEED has quickly become the most successful 
voluntary, private, market-driven building rating system in the 
country.
    Part of the reason for our success is that LEED is 
developed through an extremely open, transparent, consensus-
driven process, a process insisted upon by our diverse 
constituency of business leaders and professional 
practitioners. Membership in USGBC is completely voluntary, and 
LEED was developed to be used in a voluntary and flexible 
manner.
    Today there are more than 12,000 LEED-certified buildings 
in the U.S., and every day one and a half million additional 
square feet of commercial real estate are certified as complete 
projects. That is the equivalent of certifying about three 
Empire State Buildings every week.
    This tremendous demand for LEED is driven by the business 
case. The scale of this is not explicable in any other way than 
as being a market-based phenomenon. High-performing LEED-
certified buildings save money and deliver higher profit 
margins. Iconic companies such as Coca-Cola, Home Depot, 
Procter and Gamble, just to name a few, rely on LEED 
certification to manage costs, increase their product 
performance and their bottom line. For the same reason, nearly 
half of the Fortune 100 uses LEED certification.
    Governments, like businesses, are eager to find ways to 
implement the LEED standard and the best practices it reflects 
but they do it because they want to save taxpayer money. The 
Federal Government is the largest single user of energy in the 
U.S., and several federal agencies have embraced LEED to 
minimize waste. For example, in 2011, the Pacific Northwest Lab 
found GSA LEED-certified buildings reduced energy use compared 
to the national average by 25 percent. These high-performance 
buildings reduced operational costs by 19 percent when compared 
to the national average. Recently, the Treasury Building just 
down the street underwent an historic preservation retrofit, in 
the process achieving a LEED Gold Standard. The energy and 
water conservation elements of that LEED project save taxpayer 
dollars in the amount of $3.5 million every single year.
    In conclusion, LEED saves energy, water, natural resources 
and jobs, and as a U.S. citizen, to me, that means LEED is 
saving taxpayer dollars.
    I look forward to answering your question.
    [The prepared statement of Mr. Platt follows:]

    [GRAPHIC] [TIFF OMITTED] T4061.043
    
    [GRAPHIC] [TIFF OMITTED] T4061.044
    
    [GRAPHIC] [TIFF OMITTED] T4061.045
    
    [GRAPHIC] [TIFF OMITTED] T4061.046
    
    [GRAPHIC] [TIFF OMITTED] T4061.047
    
    [GRAPHIC] [TIFF OMITTED] T4061.048
    
    [GRAPHIC] [TIFF OMITTED] T4061.049
    
    Chairman Broun. Thank you, Mr. Platt. I appreciate you 
keeping it within five minutes, too.
    Dr. Scofield, you are recognized for five minutes.

                STATEMENT OF DR. JOHN SCOFIELD,

                     PROFESSOR OF PHYSICS,

                        OBERLIN COLLEGE

    Dr. Scofield. Good morning. My name is John Scofield. I am 
a Professor of Physics at Oberlin College and a member of the 
American Physical Society. For the last two decades, I have 
written about various aspects of renewable energy and green 
buildings including two peer-reviewed articles which address 
energy consumption by LEED-certified new commercial buildings. 
It is on this topic that I am here to speak to you today. The 
comments I offer are mine alone and do not necessarily reflect 
the views of Oberlin College or the American Physical Society.
    There are many features that characterize a green building, 
but none are more important than energy: energy consumed during 
construction, energy embodied in the building and energy used 
to operate the building. Studies have shown that over the 
lifetime of a building, the energy used for operation dominates 
these other forms. This is particularly true for federal 
buildings because they last so long. So the paramount goal of 
any green building standard, in my opinion, must be to 
significantly reduce the total primary energy consumption.
    So do green-certified buildings save energy? There are many 
examples of those that do but others do not. The question 
really is this: are there convincing, credible scientific data 
showing that certified green buildings collectively use less 
primary energy than other buildings. It is really similar to 
asking the same question about certifying a drug for use. And 
the answer to this question is no, there are not such credible 
data. Without this scientific justification, green building 
certification remains nothing more and nothing less than an 
herbal remedy. Individuals surely have the right to doubt such 
remedies, but the Federal Government should not mandate them or 
pay for them with my tax dollars.
    The problem with the science behind green building 
certification is twofold. First, there is a woeful lack of 
credible metered energy data for green or so-called high-
performance buildings. Energy data are the private property of 
the building owner. Having already benefited from the positive 
publicity of the green label, they have little to gain and much 
to lose in making energy consumption data public. In many 
cases, energy flows are not even measured. And when energy data 
are volunteered by owners, there is no doubt there is a 
tendency to provide selective data that put the best light on 
the building's performance. So-called case studies published 
for high-performance buildings are frequently little more than 
well-packaged marketing literature often presenting energy 
simulations rather than metered energy data. And studies have 
shown there to be little correlation between such simulations 
and measured building energy consumption.
    The second problem is simply the quality of scientific 
studies. Most consider only a small set of buildings that are 
hand-picked so are not representative of the larger population. 
Moreover, such studies are frequently performed as contract 
work without real peer review. The results of such studies are 
greatly shaped by the choice of the contractor. I am aware of 
only one comprehensive study of energy consumption for a large 
group of green-certified buildings. This was a study performed 
by the New Buildings Institute in 2007 under contract with the 
U.S. Green Building Council. NBI, the New Buildings Institute, 
looked at energy consumed by commercial buildings certified 
under LEED new construction version II, and one of the main 
conclusions drawn by NBI was that, and I quote, ``average LEED 
energy use was 25 to 30 percent better than the national 
average.'' This report immediately drew criticism for its 
conclusion and methodology. Concerning this, an energy study 
committee constituted by the American Physical Society wrote: 
``Whatever their efficiency, these LEED buildings consume more 
total energy per square foot either site or primary than the 
average for the entire commercial building stock.''
    Cathy Turner, the lead author of the NBI study, made a 
summary version of their data available for independent 
analysis. I have analyzed these data and identified key flaws 
in NBI's methodology, and after correcting for these flaws, I 
found that LEED buildings consume about the same amount of 
primary energy as do comparable non-LEED buildings. LEED 
buildings in this study were statistically no better or no 
worse with regard to primary energy. And the same can be said 
about greenhouse gas emissions as primary energy correlates 
strongly with carbon emission. My study was published as a 
peer-reviewed paper in the 2009 International Energy Program 
Evaluation Conference. Cathy Turner, co-author of the NBI 
study, was one of the reviewers of my paper.
    In conclusion, while green building certification has 
become popular and has succeeded in creating the image of 
energy efficiency in building, I am aware of no credible 
scientific study that demonstrates the efficacy of green 
building certification in reducing measured primary energy for 
the entire collection of buildings, or I should say, on 
average.
    Thank you for your attention. I look forward to answering 
any questions you may have to the best of my ability.
    [The prepared statement of Dr. Scofield follows:]

    [GRAPHIC] [TIFF OMITTED] T4061.051
    
    [GRAPHIC] [TIFF OMITTED] T4061.052
    
    [GRAPHIC] [TIFF OMITTED] T4061.053
    
    [GRAPHIC] [TIFF OMITTED] T4061.054
    
    [GRAPHIC] [TIFF OMITTED] T4061.055
    
    Chairman Broun. Thank you, Professor. I appreciate your 
testimony.
    Now, is it Olgyay? Is that how it is pronounced?
    Mr. Olgyay. Olgyay, please.
    Chairman Broun. Olgyay. Okay. Very good. Mr. Olgyay, you 
are recognized for five minutes.

                STATEMENT OF MR. VICTOR OLGYAY,

                      PRINCIPAL ARCHITECT,

                    BUILT ENVIRONMENT TEAM,

                    ROCKY MOUNTAIN INSTITUTE

    Mr. Olgyay. Thank you, Chairman Broun and Members of the 
Subcommittee on Investigation and Oversight. I appreciate the 
opportunity to provide this testimony on the importance of 
fossil fuel reduction targets and green building rating 
systems.
    I lead the retrofit initiative at Rocky Mountain Institute, 
RMI, an entrepreneurial nonprofit that has 30 years of 
experience in addressing energy issues with the major focus on 
buildings. We provide research and consult with private and 
public entities and particularly service providers to provide 
dramatically more efficient buildings than the typical. We seek 
to find profitable business-led solutions that will help 
transition the United States to a more verdant, prosperous and 
secure future.
    Highly efficient buildings are a crucial element of that 
future, and we have directly observed the impact that 
aggressive federal goals like EISA have made in inspiring 
people across the country to increase the efficiency of our 
built environment. We found them effective, practical and a 
good investment.
    RMI's analysis presented in our recent book ``Reinventing 
Fire'' conservatively identified $1.8 trillion in current value 
achievable through cumulative building energy savings for the 
United States as a whole captured with only a total outlay of 
about $400 billion over the next 40 years.
    Investing in energy efficiency is a win-win situation. A 
federal agency gets infrastructure improvements, improved 
reliability, diversity, energy security and, of course, energy 
cost savings. The Treasury achieves deeper savings, controls 
energy costs. The environment benefits and Americans are put to 
work. It really is good for business.
    We also find that EISA's 433 section targets are being met. 
These targets score frequent and ambitious energy-saving 
projects that are practical and accelerate investments in new 
technology. RMI has guided many projects using EISA criteria 
when designing highly efficient new buildings, net-zero 
buildings as well as retrofits of existing buildings. A recent 
example is the Byron Rogers Federal Building in Denver, a deep 
energy fit of a 1965 building which will show about a 70 
percent improvement in its energy use. It offers a net present 
value of about $556,000 to the GSA as compared to a traditional 
building design. It is a clear path to net zero by 2030, and 
when it is complete, it will be one of the most efficient 
buildings in the country. Again, this is just good business. It 
would be a problem if we didn't do these kinds of things.
    Completed in 2010, the National Renewable Energy 
Laboratory's Research Support Facility is a net-zero energy 
building built to comply with EISA. Its construction cost, 
design and so forth are in line with other buildings in 
Colorado. A PV system, photovoltaic solar energy system is paid 
for through a power purchase agreement at no extra cost to 
NREL, and this building is extensively documented and monitored 
so there is lots of information there.
    In the private sector, we also see EISA as being really 
important. We recently worked with the International Monetary 
Fund headquarters here in DC. They used EISA goals as their 
framework for guiding their design and found opportunities for 
about a 60 percent energy reduction and cost optimized 50 
percent energy reduction. We will see where that comes out.
    And of course, you may have heard of the Empire State 
Building, which we worked on, and that has been completed. It 
is currently providing about a 38 percent energy savings in 
energy improvements and also should have a payback of about 
three years, a little over three years. It also, even more 
importantly than that, than the energy savings, it has 
increased the value of that building so it is now something 
that more people desire, both the tenants and the owner, and 
this is really one of the hidden things in all of these things 
that what we haven't been talking about. The payback is 
oftentimes much more than just energy.
    So the technical goals outlined in EISA 433 are in line 
with many long-term targets that have been adopted by the 
building industry such as the Architecture 2030 Challenge 
adopted by the AIA and ASHRAE, amongst others, and there are 
more stringent standards as well--the Living Building 
Challenge, which was also evaluated by the GSA, and 
California's CPUC, which requires residential construction to 
be net zero by 2020. And all of the codes that are linked to 
these ASHRAE standards, which are also going to net zero by 
2030, private-sector standards have codes linked to them as 
well. So it is really--it is becoming the norm. It is really 
not extraordinary at all.
    And I would also commend EISA in providing for building 
owners the idea of using time to coordinate investment and 
increase the cost-effectiveness of implementation. Existing 
technology, services and resources such as natural gas, power 
purchase agreements, energy service performance contracts, 
gradient cooling technology, they work now and they are part of 
the roadmap. They shouldn't be excluded. But the key here is 
strategic planning. What we want to do is capitalize on changes 
in occupancy to effectively trigger energy savings.
    I would just like to end by saying that we strongly support 
the continuation of the existing Energy Independence and 
Security Act sections 433 and 436. The science and practice 
supporting EISA is effective and good business. Thank you for 
letting me testify.
    [The prepared statement of Mr. Olgyay follows:]

    [GRAPHIC] [TIFF OMITTED] T4061.057
    
    [GRAPHIC] [TIFF OMITTED] T4061.058
    
    [GRAPHIC] [TIFF OMITTED] T4061.059
    
    [GRAPHIC] [TIFF OMITTED] T4061.060
    
    [GRAPHIC] [TIFF OMITTED] T4061.061
    
    [GRAPHIC] [TIFF OMITTED] T4061.062
    
    [GRAPHIC] [TIFF OMITTED] T4061.063
    
    [GRAPHIC] [TIFF OMITTED] T4061.064
    
    [GRAPHIC] [TIFF OMITTED] T4061.065
    
    [GRAPHIC] [TIFF OMITTED] T4061.066
    
    [GRAPHIC] [TIFF OMITTED] T4061.067
    
    [GRAPHIC] [TIFF OMITTED] T4061.068
    
    [GRAPHIC] [TIFF OMITTED] T4061.069
    
    Chairman Broun. Thank you, Mr. Olgyay.
    Now Mr. Talbot, you are recognized for five minutes.

               STATEMENT OF MR. TOM TALBOT, CEO,

                  GLEN OAK LUMBER AND MILLING

                          OF WISCONSIN

    Mr. Talbot. Good morning, Mr. Chairman, Ranking Member 
Miller and Members of the Subcommittee. My name is Tom Talbot, 
and I am the founder and Chief Executive Officer of Glen Oak 
Lumber and Milling, which operates facilities in Wisconsin, 
Kentucky, Pennsylvania and Georgia, and employs 190 individuals 
across all branches of our core business.
    In addition, I serve on the Hardwood Federation's board of 
directors. The Hardwood Federation coordinates industry policy 
positions to ensure a unified voice on legislation impacting 
hardwood businesses. We are the largest D.C.-based hardwood 
industry trade association representing thousands of hardwood 
businesses in every state in the U.S. Companies in the hardwood 
industry are predominantly small family-owned businesses 
dependent upon a sustainable supply of healthy timber 
resources. Overall, the U.S. forest products industry produces 
about $175 billion in products annually and employs nearly 
900,000 men and women in good-paying jobs. The industry meets a 
payroll of approximately $50 billion annually and is among the 
top 10 manufacturing sector employers in 47 States.
    The industry plays a significant role in the U.S. economy 
and has experienced a significant decline in operations due to 
the economic downturn and housing market crash. Specifically, 
U.S. hardwood lumber production is down 53 percent from 2007 to 
2011 with a total loss of 583,000 jobs in wood manufacturing 
employment.
    One of the most important opportunities for the future 
viability of the forest products industry is recognition of 
wood as a true green material in green building design because 
of its environmental benefits. The green building market is one 
of the fastest-growing markets for wood products. Some even 
estimate the market could grow from its $7.1 billion value in 
2010 to as much as $173 billion in value by 2015. Wood has 
played a significant role as a structural material in the 
United States for hundreds of years. Indeed, the USDA, the U.S. 
Forest Service and the environmental community all have 
recognized its impact. To quote U.S. Department of Agriculture 
Secretary Tom Vilsack from a March 2011 announcement on USDA 
commitment to promoting wood in any green building designs: 
``Wood has a vital role to play in meeting the growing demand 
for green building materials. Forest Service studies show that 
wood compares favorably to competing materials.''
    To truly address the environmental concerns that green 
building is attempting to resolve--reducing energy consumption, 
carbon emissions, air and water pollution--green building must 
use science-based systems, life cycle assessment, to evaluate 
building materials. LCA is a system involving a rigorous 
process that measures the environmental impact of a product. 
Scott Bowe, Professor of Wood Science and Forest Products for 
the University of Wisconsin, reports: ``LCA has become the 
world standard for measuring the environmental impact of a 
product's manufacture and use. It is important that the green 
building programs used in the United States adopt LCA as their 
standard measure for environmental performance.''
    LCA has been incorporated into the design system by some 
standards like Green Globes. Currently, the U.S. Green Building 
Council's LEED standard does not use LCA to evaluate building 
materials. The lack of a rigorous process to measure 
environmental impacts means that products that do have a lower 
environmental footprint, like wood products, are not promoted 
and encouraged. For example, a recent review of several LCA 
assessments by a Canadian think tank shows that substituting 
one cubic meter of wood for one cubic meter of other building 
materials such as steel, concrete or plastics, reduces CO<INF>2</INF> 
emissions by an average of 1.1 tons.
    Irrespective of species, one kilogram of U.S. hardwood 
lumber stores the equivalent of 1.6 kilogram of carbon dioxide 
for as long as it is in use. Wood is the only mainstream 
construction material that, through sustainable management and 
harvest for use in long-life products, has the potential to act 
as a significant carbon pool, as opposed to a drain, within the 
structure of the building.
    To ensure a level playing field for all building products--
wood, steel, plastic, concrete, et cetera--the same rigorous 
standards for measurement of environmental performance must be 
adopted. This will require a shift towards the use of LCA and 
recognition of the importance for the development and use of 
environmental product declarations. LCA-based EPDs can deliver 
transparent, standardized information on the full environmental 
impact of a material or product across its entire life cycle. 
International standards have been developed to ensure that the 
information provided in EPDs is comparable and that 
environmental assessments are performed in the same way and 
yield the same results, no matter who does the analysis.
    Moving forward, it is imperative that federal agencies when 
developing building material preferences ensure that the 
environmental and economic benefits are determined by embracing 
LCA and the future use of EPDs. We applaud the leadership of 
the Committee in holding this hearing and in helping to return 
science to green building decisions.
    [The prepared statement of Mr. Talbot follows:]

    [GRAPHIC] [TIFF OMITTED] T4061.074
    
    [GRAPHIC] [TIFF OMITTED] T4061.075
    
    [GRAPHIC] [TIFF OMITTED] T4061.076
    
    [GRAPHIC] [TIFF OMITTED] T4061.077
    
    Chairman Broun. Thank you, Mr. Talbot. I want to thank all 
of you all for your testimony here today, reminding Members 
that Committee rules limit questioning to five minutes each. 
The Chair at this point will open the first round of questions. 
The Chair recognizes himself for five minutes.
    Mr. Platt, you just heard Mr. Talbot's testimony. Why does 
the LEED system not recognized life cycle analysis?
    Mr. Platt. The LEED system is in the midst of being re-
renewed and evolved, and in the course of that, we made it very 
clear that life cycle analysis is going to be a part of our 
philosophy, and I commend Mr. Talbot for his commitment to 
that. We discussed earlier evolution of that issue in Germany. 
He was very impressed with that. We are trying to make sure the 
global standard that we are also taking into account the life 
cycle analysis study. That is controversial in some circles. 
Some types of industries don't like looking at their products 
except when they are in the building. They don't like looking 
at the product when they are being manufactured or when they 
are being disposed of. We are going to look at, I believe the 
way this will evolve is, we will begin to look fully at the 
life cycle and in that respect are impressed with what Mr. 
Talbot said and what the Green Globes people have done.
    Chairman Broun. Well, thank you. I believe that all cost 
energy use in producing the products needs to be part of the 
process of evaluation. We need the metrics and the data to 
further that.
    Mr. Hubbell, would you be willing to have a federal advisor 
on your board of directors of the same seniority as Mr. 
Kampschroer's deputy?
    Mr. Hubbell. Yes, we would.
    Chairman Broun. Have you asked GSA? And if so, what has 
their response been?
    Mr. Hubbell. We requested--I believe I am correct here--we 
requested some time ago to have a GSA representative serve on 
our board in a similar capacity as Don Horn was serving on the 
board of the U.S. Green Building Council, and that request was 
not accommodated.
    Chairman Broun. Why?
    Mr. Hubbell. I don't know.
    Chairman Broun. Okay. Let me see if I can get an answer for 
you in written questions.
    Mr. Talbot, GSA currently has a policy that calls for new 
construction to be LEED certified whereas other federal 
agencies like the USDA have adopted multiple green building 
rating systems. Why is it important to your business that 
federal agencies open their policies to multiple green building 
rating systems?
    Mr. Talbot. The problem the hardwood industry has is that--
or should I say challenge--is only 80, or 20 percent of the 
timberlands are FSC certified, and with the environmental and 
economic conditions we are all going through as an industry and 
the housing crash, it just isn't compatible for most of the 
industry to supply these buildings because our case in point, 
we are not FSC certified and we don't see the value in 
investing those dollars in these economic times.
    Chairman Broun. Do you think that FSC certification should 
be abandoned as a parameter, as a metric in the green ratings?
    Mr. Talbot. The way I look at it, is that the certification 
piece is yesterday's news. I think the future should be based 
on life cycle assessments and EPDs because it is how 
efficiently one does it, and I think there shouldn't be one 
system that is the system. It should be an open framework or 
model and I think the market will take care of itself because, 
you know, it is proven that American forests are the best 
managed in the world and the hardwoods are doing and have done 
for many, many generations what they have always done, and I 
don't think we should have a stamp that it has to be one 
certified body that controls that.
    Chairman Broun. Very good. Mr. Platt was nodding his head 
yes, and he said we are going to go to life cycle analysis, so 
hopefully that will be in the near future that it is so.
    Mr. Platt, USGBC went through the process of becoming an 
accredited ANSI standards developing organization. Is USGBC now 
committing to develop all of its standards according to those 
ANSI rules?
    Mr. Platt. USGBC has a process, Mr. Chairman, that works 
extremely well, and we are nonetheless very eager to find out 
any specific concerns that either this Committee has or others 
have here about that process. Our process is one that is 
extremely responsive to this huge demand to address continuous 
requests for new systems, new standards. We are very, very, 
very confident in our process. We have not had an overwhelming 
demand from our membership, from the people that are using our 
materials to have our--change our process. But again, having 
said that, if there is something about ANSI review of our 
process that would improve it, we would be very open to talking 
to you and other members of the committee about that.
    Chairman Broun. Well, that sounds like a no. My time is 
expired.
    Mr. Miller, you are recognized for five minutes.
    Mr. Miller. Thank you, Mr. Chairman.
    I may overstate the case with respect to Dr. Scofield's 
testimony, but he criticized sternly the research that lies 
behind the representations that buildings are green or high-
performance green buildings, that that claim is simply kind of 
marketing, it is vacuous puffery, saying a green building--a 
building is a green building is like an advertisement saying 
that Miller Beer has great taste, and is less filling. There 
really is nothing to it.
    Mr. Olgyay, is the----
    Mr. Olgyay. Olgyay.
    Mr. Miller. Olgyay. Excuse me. And I just heard it 
pronounced repeatedly for Dr. Broun's benefit. Is that a fair 
characterization of Rocky Mountain Institute's analysis of the 
savings of green building design for the Empire State Building 
or any other building?
    Mr. Olgyay. I agree with Dr. Scofield in that, you know, 
the rating system itself does not produce a high-performance 
building. What the rating system does is, it encourages people, 
and within any set of buildings, you will find high performers 
and low performers. We like to focus on the high performers, 
and we do feel that rating systems do end up raising the bar 
for the lower performers. They can't basically get rated if 
they don't do at least as well as the codes and the recognition 
within the different rating systems require. So our experience 
is that rating systems including, you know, the recommendations 
in EISA are fantastic in pushing the process farther and 
deeper, and again, the proof is in the pudding. You have to 
actually look at how much the energy is saving and measure 
that, and we find that when we do that and we actually go for 
deep energy savings, it is very cost-effective and the rating 
systems do encourage that.
    Mr. Miller. Mr. Platt and Mr. Hubbell, there appears to be 
criticisms of your rating systems. Do you embrace Dr. 
Scofield's testimony or do you disagree with it? Mr. Hubbell, 
Mr. Olgyay's testimony appeared to be that there is some value 
but it certainly needs a lot of work. Mr. Platt.
    Mr. Platt. Well, we are very----
    Mr. Miller. Olgyay.
    Mr. Platt. We are very, very confident in the state of the 
record with respect to the value of LEED-certified buildings. 
People don't have to do this. They do it voluntarily, and we 
reference various standards including the Energy Star standard 
and the Energy Star benchmarking process. More than half of the 
1.7 million square feet a day that we certify is certified as 
existing buildings that perform better than they did when they 
began the process of becoming LEED certified, and those 
buildings perform on average an Energy Star score of 86. That 
means by definition, they are in the top 15 percentile of 
performing buildings, and that includes the Empire State 
Building, which is LEED Gold. It includes the Treasury Building 
that I referred to that is LEED Gold. The performance level of 
LEED buildings, and again, the majority of the square footage 
are these existing buildings, is staggeringly impressive and 
nobody--because of that alignment with Energy Star, nobody has 
been claiming that that level of performance is not accurate.
    Dr. Scofield, I am not a professor, so I won't take him on. 
I will just say that his study does not--and I think, you know, 
he fairly made that point--his study is only about new 
buildings and a data set that is very stale. It is almost eight 
years old, the actual buildings in the data set. So that is a 
different story altogether.
    Mr. Miller. Mr. Hubbell.
    Mr. Hubbell. Yes. I would agree with Dr. Scofield that none 
of us are perfect in documenting the performance of buildings 
that we certify and so certainly we need to make improvements 
there. I would take some issue, as Mr. Platt has, that we are 
not doing it at all. We rely on Energy Star and we, for 
example, in our energy performance section, you have to be 25 
percent, the top 25 percent to even get points. That is based 
on a Department of Energy database of real buildings. And so 
our users can go--and it is called the CBECS database. Our 
users can go in and they can plug in their building type, they 
can look at what actual buildings are doing and they benchmark 
against that. So we are doing some things right. We have got 
things to learn. We have got improvements to make. And I would 
say that is probably the case with both Mr. Platt and my 
organization.
    Mr. Platt. I associate myself fully with his ``we could 
improve and do a lot better'' point.
    Mr. Miller. Yes, I know. All right.
    Chairman Broun. The gentleman's time has expired. If it 
okay with you, I will ask one more question and let you ask one 
more question and we will be done. How about that?
    Mr. Miller. That is a deal, Mr. Chairman.
    Chairman Broun. Okay. Good.
    Professor Scofield, has USGBC responded to your study of 
their rating systems, and what about GSA or DOE and its 
national labs?
    Dr. Scofield. Well, let me first, if I can, respond to his 
comment. It is absolutely correct that my work is totally 
restricted to the LEED new construction buildings. It doesn't 
address at all existing buildings, and I am encouraged by the 
fact that they use Energy Star building scores as a way to test 
performance.
    In answer to your question, I have never had a response 
from the U.S. Green Building Council, and I have had no 
communication with the GSA.
    Chairman Broun. Maybe after today you will. How about DOE? 
You didn't respond to that.
    Dr. Scofield. I have not.
    Chairman Broun. And its national labs, too.
    Dr. Scofield. Yeah, I have not had any communication 
subsequent to the papers I have written with anybody from the 
DOE.
    Chairman Broun. Okay. Very good. Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. I will keep our 
agreement to ask one question, but it will be to several 
witnesses and in several parts.
    Some of the agencies do use the LEED system for new 
construction but not all of them. The USDA has adopted multiple 
green building rating systems that includes LEED and Green 
Globes, and that seemed to be what Dr. Hogan was saying 
earlier, the Department of Energy wasn't just adopting any set 
of third-party ratings from the private sector, they were kind 
of picking and choosing cafeteria style. Do you think it is 
important that there be one rating system? Well, first of all, 
do you think the government should promulgate their own 
standards or do something more like what OSHA initially did 
with ANSI standards, workplace safety standards? Should 
government adopt their own standards or is it important that 
there be one set of ratings or can they be picked from 
cafeteria style? And that is to the entire panel, anyone who 
wishes to address it.
    Dr. Scofield. Well, let me jump in to say that I think the 
rating systems do a lot of good things to encourage good 
building practices, and they have some success. I would like to 
see the government augment any rating system with a fundamental 
standard on performance. It is a question of closing the loop. 
We can think we are making energy-efficient buildings based on 
simulations and folklore but the bottom line is, what is the 
measured primary energy performance? And if we don't close the 
loop properly, you end up with this Lake Woebegone effect where 
we think we are above average, but somehow we are using more 
energy. And so I think that would be the thing for the 
government to do would be to add a really critical performance 
standard that I don't see in any of the rating systems.
    Mr. Miller. Okay. Mr. Platt.
    Mr. Platt. LEED is a completely voluntary system and it was 
developed to be used in a flexible way. One of the challenges 
of the user of the--as a government is that it will have all 
kinds of other pressures and concerns, sometimes very 
appropriately, placed on it, but as far as the government 
deciding, I believe they should decide, you know, building by 
building, situation by situation, what is the appropriate--or 
portfolio by portfolio in some cases. But really, the USGBC is 
not here to say that everybody should use LEED every moment in 
every context.
    Mr. Miller. Tom Talbot.
    Mr. Talbot. To take this a little different way, if you 
look at environment product declaration, or an EPD, and it is 
all done by math, and you talk about the energy consumption 
from the woods to the transportation to the dry kiln to the 
transportation to the sawmill, all of that is mathematical, and 
if an EPD no matter whether it is wood, concrete, steel or 
aluminum, is the basis, you will get the numbers you really 
need because it all becomes math, and it takes the emotion out 
of it. So all I can say is, as long as there is an EPD model in 
this, you will win, and the taxpayer will win.
    Mr. Miller. Mr. Hubbell.
    Mr. Hubbell. Sure. Thanks. Generally speaking, I think 
competition is a good thing. I think it drives down cost and 
improves quality, and that is not just in this instance, it is 
in all instances, and that has been proven since the beginning 
of time. So I think that is a good thing. Multiple systems are 
good. I think the Federal Government is doing a good thing by 
drafting their own benchmarks, the federal guiding principles. 
What you are doing there is, you are establishing a hurdle and 
you are telling the rest of us to go jump over it, and that is, 
I think, a good thing.
    Frankly, my own personal opinion is, I think that this 
industry that we are in is in the process and should be in the 
process of being commoditized. Green building certification 
shouldn't be expensive. Every dollar you pay me to tell you 
about your building is a dollar you can't spend improving your 
building. There is nothing magic about hanging a plaque on a 
wall. We want to drive the cost as low as possible and still 
provide a credible assessment so that people can upgrade their 
HVAC systems, they can add more insulation, they can improve 
their doors and windows, and so that is how--I think that is 
the path we are on and I think it is a good path.
    Chairman Broun. The gentleman's time is expired.
    I want to thank you all for you all's valuable testimony 
here today and the Members for their questions. The Members of 
the Subcommittee may have additional questions for the 
witnesses, and we ask for you to respond to these in writing. 
Please do so as expeditiously as possible and as verbosely as 
possible. The record will remain open for two weeks for 
additional comments by Members. The witnesses are excused and 
the hearing is now adjourned.
    [Whereupon, at 11:32 a.m., the Subcommittee was adjourned.]

                   Answers to Post-Hearing Questions


[GRAPHIC] [TIFF OMITTED] T4061.083

[GRAPHIC] [TIFF OMITTED] T4061.084

[GRAPHIC] [TIFF OMITTED] T4061.085

[GRAPHIC] [TIFF OMITTED] T4061.086

[GRAPHIC] [TIFF OMITTED] T4061.087

[GRAPHIC] [TIFF OMITTED] T4061.088

[GRAPHIC] [TIFF OMITTED] T4061.089

[GRAPHIC] [TIFF OMITTED] T4061.090

[GRAPHIC] [TIFF OMITTED] T4061.091

[GRAPHIC] [TIFF OMITTED] T4061.092

[GRAPHIC] [TIFF OMITTED] T4061.093

[GRAPHIC] [TIFF OMITTED] T4061.094

[GRAPHIC] [TIFF OMITTED] T4061.095

[GRAPHIC] [TIFF OMITTED] T4061.096

[GRAPHIC] [TIFF OMITTED] T4061.097

[GRAPHIC] [TIFF OMITTED] T4061.098

[GRAPHIC] [TIFF OMITTED] T4061.099

[GRAPHIC] [TIFF OMITTED] T4061.100

[GRAPHIC] [TIFF OMITTED] T4061.101

[GRAPHIC] [TIFF OMITTED] T4061.102

[GRAPHIC] [TIFF OMITTED] T4061.103

[GRAPHIC] [TIFF OMITTED] T4061.104

[GRAPHIC] [TIFF OMITTED] T4061.105

[GRAPHIC] [TIFF OMITTED] T4061.106

[GRAPHIC] [TIFF OMITTED] T4061.107

[GRAPHIC] [TIFF OMITTED] T4061.108

[GRAPHIC] [TIFF OMITTED] T4061.109

[GRAPHIC] [TIFF OMITTED] T4061.110

[GRAPHIC] [TIFF OMITTED] T4061.111

[GRAPHIC] [TIFF OMITTED] T4061.112

[GRAPHIC] [TIFF OMITTED] T4061.113

[GRAPHIC] [TIFF OMITTED] T4061.114

[GRAPHIC] [TIFF OMITTED] T4061.115

                               Appendix 2

                              ----------                              


                   Additional Material for the Record


      Green Building Certification Systems Hearing Follow-Up Items

[GRAPHIC] [TIFF OMITTED] T4061.116

[GRAPHIC] [TIFF OMITTED] T4061.117

    Written Testimony of Ronald E. Jarnagin, Former ASHRAE President

[GRAPHIC] [TIFF OMITTED] T4061.118

[GRAPHIC] [TIFF OMITTED] T4061.119

[GRAPHIC] [TIFF OMITTED] T4061.120

[GRAPHIC] [TIFF OMITTED] T4061.121

[GRAPHIC] [TIFF OMITTED] T4061.122

[GRAPHIC] [TIFF OMITTED] T4061.123

[GRAPHIC] [TIFF OMITTED] T4061.124

[GRAPHIC] [TIFF OMITTED] T4061.125

[GRAPHIC] [TIFF OMITTED] T4061.126

[GRAPHIC] [TIFF OMITTED] T4061.127

Statement for the Record on Behalf of the National Association of Home 
                                Builders

[GRAPHIC] [TIFF OMITTED] T4061.128

[GRAPHIC] [TIFF OMITTED] T4061.129

[GRAPHIC] [TIFF OMITTED] T4061.130

[GRAPHIC] [TIFF OMITTED] T4061.131

[GRAPHIC] [TIFF OMITTED] T4061.132

[GRAPHIC] [TIFF OMITTED] T4061.133

[GRAPHIC] [TIFF OMITTED] T4061.134

 Statement for the Record by Subcommittee Ranking Member Paul D. Tonko

[GRAPHIC] [TIFF OMITTED] T4061.135

[GRAPHIC] [TIFF OMITTED] T4061.136


                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
